                            UNITED STATES DEPARTMENT OF EDUCATION
                                        OFFICE OF INSPECTOR GENERAL
                                                 32 Old Slip, 26th Floor
                                                  Financial Square
                                                 New York, NY 10005
                                       PHONE: (646) 428-3860 FAX: (646) 428-3868


                                                         January 30, 2007

                                                                                                          Control Number
                                                                                                        ED-OIG/A02F0023


Dr. Lauren Larsen
Acting Commissioner
Virgin Islands Department of Education
No. 44-46 Kongens Gade
St. Thomas, VI 00802

Dear Acting Commissioner Larsen:

This Final Audit Report, entitled Virgin Islands Department of Education Administration of the
Learning Point Associates Contract, presents the results of our audit. Our objective was to
determine whether the Virgin Islands Department of Education (VIDE) ensured that Learning
Point Associates (LPA) adequately met contract deliverables in accordance with the contract
prior to payment by VIDE, and complied with applicable laws and regulations, for the period of
September 15, 2003, through September 30, 2005.

We provided a draft of this report to VIDE. In its response to our draft, VIDE concurred with
the finding and the recommendations. The response is included in its entirety as an attachment
to this report.


                                                 BACKGROUND


As a result of serious and recurring deficiencies in the administration of various Federally funded
programs by the Government of the Virgin Islands (VI), the U.S. Department of Education (ED)
designated VIDE as a “high-risk grantee” under 34 C.F.R. § 80.12. Serious deficiencies were
found in many key aspects of procurement, financial management, and proper record keeping.
Several ED-Office of Inspector General (OIG) audit reports cited numerous weaknesses in
management controls over ED programs and funds. ED has worked closely with the VIDE and
with other VI government agencies to address these major issues, but the problems could not be
corrected by the VI immediately. As a result, ED entered into a comprehensive, three-year
Compliance Agreement with the VI on September 23, 2002.

The Compliance Agreement contained four areas of crosscutting issues including: (1) Program
Planning, Design, and Evaluation, (2) Financial Management, (3) Human Capital, and (4)
Property Management and Procurement. Under Program Planning, Design, and Evaluation, the
VI was required to develop a comprehensive, school-based, statewide plan by seeking the

          Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation
Final Report
ED-OIG/A02F0023                                                                                             2 of 8

assistance of expert consultants and other grantees to provide hands-on guidance in completing
the comprehensive planning process. The VI was required to develop, prepare, and submit to ED
a State application in conformance with the requirements of each program for which funds were
to be expended.

The expected outcomes were greater site-based authority, enhanced school site-based
management, implementation of programs to fit the needs of the individual school population,
and to bring the VI into compliance with statutory and regulatory requirements for ED programs.

VIDE entered into a $7.4 million fixed-price contract with LPA on September 15, 2003, to
develop a comprehensive, territory-wide plan to give schools greater site-based authority to
determine needs and apply funding; enhance school site-based management through greater
community involvement and accountability; implement individual school programs; bring the VI
into compliance with requirements for ED programs; and utilize quantitative data for decision-
making at the school level. The plan would be based on information derived from each of the
territory’s 34 schools and the district plans.

The plans were to be updated to reflect changes and improvements in each program year. LPA
was to submit to VIDE a monthly interim progress report summarizing accomplishments, status
of progress, exceptions to planned activities, a financial report for the reporting period, and any
difficulties encountered.



                                          AUDIT RESULTS


VIDE did not ensure that LPA completed contract deliverables in accordance with the contract.
Although LPA did complete the contract deliverables, VIDE did not have sufficient controls over
its contract with LPA to ensure that the contract deliverables were completed timely, accurately,
and prior to payment of LPA invoices. Further, VIDE did not ensure that its contract with LPA
contained sufficient Federal guidelines to ensure that contract services were completed in
accordance with Federal requirements.

Auditee Comments

VIDE concurred with the findings and recommendations in the draft report. VIDE stated that
they had an employee who was responsible for tracking the work of LPA during the contract
period, but did not have formal contract administration policies and procedures in place. Further,
meetings between VIDE officials and LPA did not include a regular review of the deliverables
completed by LPA. The response stated that VIDE will develop a formal Contract
Administration Policy and Procedure Manual by June 2007 that will meet the requirements of 34
C.F.R. § 80.40.1




1
  VIDE contracted with Alvarez & Marsal Public Sector Services, LLC in August 2006 to provide third party
fiduciary services in the areas of financial management, procurement, inventory, and asset management.
                                                       .
Final Report
ED-OIG/A02F0023                                                                                             3 of 8

FINDING – VIDE Did Not Adequately Monitor the LPA Contract

VIDE did not adequately manage its contract with LPA to ensure that the contract deliverables
were adequately completed. VIDE had insufficient controls written in the contract, and did not
perform sufficient contract monitoring to ensure that contract deliverables were delivered timely,
in accordance with the contract, and prior to payment of the LPA invoices. VIDE did not
provide documentation to OIG to show that the deliverables were completed by the deadlines
contained in the contract. Key employees approved payment of the invoices, but they did not
verify that the deliverables were completed before LPA invoices were paid.

34 C.F.R. § 80.40(a) states, “Grantees are responsible for managing the day-to-day operations of
grant and subgrant supported activities. Grantees must monitor grant and subgrant supported
activities to assure compliance with applicable Federal requirements and that performance goals
are being achieved. Grantee monitoring must cover each program, function, or activity.”

According to the contract, the 13 deliverables included: (1) selecting a planning team; (2)
conducting needs assessments for all 34 schools; (3) describing goals and measurable objectives
to achieve adequate yearly progress; (4) ensuring instruction by highly qualified teachers; (5)
identifying strategies to increase parental involvement; (6) creating strategies to assist preschool
children in the transition from early childhood programs; (7) taking steps to include teachers in
decisions regarding the use of academic assessments; (8) developing strategies to assist students
with academic difficulties; (9) coordinating federal, state, and local services and programs; (10)
describing strategies to continually evaluate outcomes of the plan; (11) developing district-wide
plans for implementing school-wide plans; (12) developing a state-wide plan for implementing
school-wide and district-wide plans; and (13) continuing to assist VIDE in updating school-wide
plans.

VIDE had no means to measure the timeliness of the deliverables completed by LPA and could
not determine whether the contract deliverables were timely. Further, VIDE had no assurance
that the services received were in accordance with the contract.

LPA should have commenced work in August 2003 according to the original implementation
plan in the contract.2 However, the contract was not executed until September 15, 2003, and
LPA started the work later than expected.3 We requested any revised deliverable schedules and
implementation plans showing the new dates of completion from VIDE. Despite repeated
requests, VIDE did not provide documentation to establish that the deliverable schedules and
implementation plans were revised. We were later provided updated implementation plans for
the three years of the contract by LPA at the end of our audit.

Initially, VIDE could not provide OIG with documentation showing if the deliverables were
completed. OIG performed additional work by obtaining documentation from LPA to determine

2
 In February 2003, VIDE started the procurement process by issuing a Request for Proposal from eligible bidders.
The negotiations with LPA began in May 2003 and were completed in July 2003.
3
  ED-OIG report, The Virgin Islands Is At Risk of Not Meeting the Goals of the September 2002 Compliance
Agreement, ED-OIG/A02-D0028, issued in February 2005, stated that "Due to the late approval of the 2001 grant,
VIDE delayed entering into a contract with LPA . . . to develop a comprehensive, territory-wide plan based on the
information derived from individual school and district plans.”

                                                         .
Final Report
ED-OIG/A02F0023                                                                              4 of 8

that the deliverables were completed. However, we could not determine and VIDE did not
provide documentation that showed when the deliverables were completed. As a result, we were
unable to determine when the deliverables were actually completed, or whether the deliverables
were completed in accordance with the milestones in the contract.

VIDE did not adequately monitor the contract deliverables because it did not have any contract
administration policies and procedures in place. Despite the critical importance of the contract
deliverables for VIDE’s Compliance Agreement with ED, VIDE did not establish procedures to
monitor LPA and did not ensure that the LPA contract had sufficient controls and information
reporting requirements for VIDE to meet its monitoring obligations. As a result, VIDE had no
assurance that the contract deliverables were timely and had no means to measure the timeliness
of the deliverables completed by LPA. VIDE had no assurance that the services received were in
accordance with the contract. Further, VIDE had no assurance that the $6.4 million paid to LPA
for contract services was spent efficiently in order to improve the territory’s educational system.4

Recommendations

We recommend that the Assistant Secretary for OESE require VIDE to:

           1. Develop and implement adequate contract administration policies and procedures.

           2. Ensure that future contracts contain adequate controls and information reporting
              requirements to permit monitoring by VIDE as required by 34 C.F.R. § 80.40.



                        OBJECTIVE, SCOPE, AND METHODOLOGY


Our objective was to determine whether VIDE ensured that LPA adequately met contract
deliverables in accordance with the contract prior to payment by VIDE, and VIDE complied with
applicable laws and regulations, for the period of September 15, 2003, through September 30,
2005. We tested to ensure that VIDE complied with 34 C.F.R. § 80.40.

To accomplish our audit objective, we:

     ·     Reviewed the September 15, 2003, contract and the implementation plans between VIDE
           and LPA;
     ·     Interviewed VIDE officials to obtain an understanding of the payment process for LPA
           invoices and the monitoring procedures;
     ·     Reviewed LPA invoices and miscellaneous disbursement vouchers;
     ·     Reviewed the school improvement plans;
     ·     Reviewed the monthly interim progress reports and monthly financial reports;
     ·     Reviewed the Continuous Improvement Plans;
     ·     Reviewed the September 23, 2002, VI Compliance Agreement;
     ·     Interviewed school administrators to determine the level of satisfaction with the school
           plans;

4
    VIDE has paid LPA $6.4 million as of June 2006 on the $7.4 million contract.
                                                           .
Final Report
ED-OIG/A02F0023                                                                            5 of 8

  ·    Reviewed the FY 2004 grant application to determine if certain contract deliverables
       were met;
  ·    Interviewed the LPA project manager; and
  ·    Interviewed officials at the VI Department of Property and Procurement to determine the
       contract award procedures.

We performed our fieldwork at VIDE and the Department of Property and Procurement on St.
Thomas, Virgin Islands between August 2005 and March 2006. We performed a limited review
of the internal controls relating to the administration of the LPA contract. Our audit disclosed
significant internal control weaknesses that affected VIDE's ability to administer the contract
with LPA. Specifically, VIDE did not have adequate controls over contract monitoring to ensure
that contract deliverables were completed timely.

VIDE had 15 payment vouchers containing a total of 20 invoices, totaling $4,278,777 during the
period of May 2004 through July 2005. We judgmentally selected and reviewed the 7 largest
payment vouchers, encompassing 12 invoices, totaling $3,580,410.

To complete our audit objective, we relied, in part, on computer processed data from the VI
Financial Management System (FMS). We verified the completeness and accuracy of the data
by comparing the source records with the computer generated check history inquiry form from
the FMS. Based on our testing, we determined that the computer-processed data was reliable for
the purpose of our audit.

We conducted the audit in accordance with generally accepted government auditing standards
appropriate to the limited scope of the audit described above.



                            ADMINISTRATIVE MATTERS


Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinion of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on this audit:

                              Raymond Simon
                              Deputy Secretary
                              U.S. Department of Education
                              400 Maryland Avenue, SW
                              Washington, D.C. 20202

It is the policy of the U.S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be appreciated.
                                                .
Final Report
ED-OIG/A02F0023                                                                            6 of 8

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.


                                             Sincerely,


                                             /s/
                                             Daniel Schultz
                                             Regional Inspector General for Audit


Attachment




                                                .
            Final Report
            ED-OIG/A02F0023                                                                    7 of 8
                                      Attachment 1: VIDE Response

                              ~obernmentof tbe Wniteb ~tateg 'l1irgin 3Jglanbg
                                    q)~artment" of !Education
                                           Office of Commissioner
                                            1834 Kongens Gade
                                  St. Thomas, U.S. Virgin Islands 00802-6746
TEL.:   (340) 774-0100                                                                     FAX: (340) 7711·71153



              19 December 2006



              Daniel P. Schultz
              Regional Inspector General for Audit
              United States Department of Education
              Office of Inspector General
              32 Old Slip, 26 th Floor
              Financial Square
              New York, NY 10005

                                        Control Number: ED-OIGI A02F0023

              Dear Inspector General Schultz:

             First allow me to apologize for the delay in responding to the Draft Audit Report,
             entitled Virgin Islands Department of Education Administration of the Learning
             Point Associates Contract which was received in my office on November 9,2006 .
             Shortly after receiving the draft audit report, I was out on sick leave for two
             weeks . Subsequent to my return, I again became ill and was tremendously
             slowed down in various areas at work.

             Notwithstanding, I would like to acknowledge the extension received for
             submitting a response to the draft audit report . The Virgin Islands Department of
             Education entered into a contract with Learning Point Associates (LPA) in
             September 2003. Due to ongoing negotiations after the contractor was selected,
             the anticipated start date had to be modified. We concur that we failed to provide
             the revised timetable for the completion of deliverables based on the revised start
             time . However, we believe that the information provided later during the audit
             process regarding the revised timeline for deliverables should be considered
             when the audit report is being finalized .

             With respect to the audit finding - VIDE did not adequately monitor the LPA
             Contract, we concur. Although we had employed a Compliance Monitor whose
             responsibility included, among other tasks, tracking the work of LPA during the
             contract period, we indeed , did not have formalized Contract Administration
             Policies and Procedures in place to be followed by the employee .




                                                        .
Final Report
ED-OIG/A02F0023                                                                 80f8




 Mr. Daniel P. Schultz 

 19 December 2006 

 Page Two 



 Further, although regular meetings were held between the, Project Manager for
 LPA and the Commissioner of Education regarding progress on the overall
 contract, as well as regular meetings between the Superintendents and the
 Project Manager for LPA, we did not follow a specific rubric that resulted in our
 regular review of deliverables duringsaid meetings.

 Thus, we also concur with the recommendations and will make every effort,
 during the first six (6) months of calendar year 2007, to develop the
 recommended document - a Contract Administration Policies and Procedures
 Manual so that we can have adequate controls and meet the information
 reporting requirements for monitoring contracts as required by 34 C.F.R. section
 80.40. The development and implementation of the Contract Administration
 Policies and Procedures Manual will be the responsibility of the Deputy
 Commissioner for Fiscal and Administrative Services. We commit to having the
 Manual developed by 30 June 2007.

 We continue to be committed to providing quality educational services to our
 stu,dentsand to using all funds, both local and federal, as effectively and
 efficiently'- as we can.

 Sincerely,



 Noreen Michael, Ph.D. 

 Commissioner 


 pc: 	   Donna Frett-Gregory, MBA 

         Deputy Commissioner, Fiscal & Administrative Services 


         Leslie E. Turner, Esq. 

         Legal Counsel 

